BBniteD States Court of Appeals
jfor tfje Ctgbtl) Circuit
No. 20-1769
Lisa Truong
Plaintiff - Appellant
v.
UTC Aerospace Systems
Defendant - Appellee
Appeal from United States District Court
for the District of Minnesota
Submitted: December 14, 2020
Filed: December 17, 2020
[Unpublished]
Before GRUENDER, ERICKSON, and GRASZ Circuit Judges.

PER CURIAM.
Lisa Truong appeals the district court’s1 adverse grant of summary judgment.
After careful review of the record and the parties’ arguments on appeal, we find no
’The Honorable Patrick J. Schiltz, United States District Judge for the District
of Minnesota, adopting the report and recommendations of the Honorable Becky R.
Thorson, United States Magistrate Judge for the District of Minnesota.
Appellate Case: 20-1769

Page: 1

Date Filed: 12/17/2020 Entry ID: 4985948

basis for reversal. See Banks v. John Deere & Co., 829 F.3d 661,665 (8th Cir. 2016)
(standard of review). Accordingly, we affirm. See 8th Cir. R. 47B.

-2-

Appellate Case: 20-1769

Page: 2

Date Filed: 12/17/2020 Entry ID: 4985948

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1769
Lisa Truong
Plaintiff - Appellant
v.
UTC Aerospace Systems
Defendant - Appellee
Appeal from U.S. District Court for the District of Minnesota
(0:18-cv-00941 -PJS)
JUDGMENT
Before GRUENDER, ERICKSON, and GRASZ, Circuit Judges.
This appeal from the United States District Court was submitted on the record of the
district court and briefs of the parties.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
December 17, 2020

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-1769

Page: 1

Date Filed: 12/17/2020 Entry ID: 4985951

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1769
Lisa Truong
Appellant
v.

UTC Aerospace Systems
Appellee

Appeal from U.S. District Court for the District of Minnesota
(0:18-cv-00941 -PJS)
ORDER
The petition for rehearing by the panel is denied.
January 20, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-1769

Page: 1

Date Filed: 01/20/2021 Entry ID: 4995966

CASE 0:18-cv-00941-PJS-BRT Doc. 65 Filed 03/11/20 Page 1 of 6

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Case No. 18-CV-0941 (PJS/BRT)

LISA TRUONG,
Plaintiff,

ORDER

v.

UTC AEROSPACE SYSTEMS,
Defendant.
Lisa Truong, pro se.
Julia H. Pozo, Allyson L. Johnson, and Kyle A. Petersen, SEYFARTH
SHAW LLP, for defendant.
Plaintiff Lisa Truong brings this action against her current employer, Collins
Aerospace ("Collins"),1 alleging discrimination and harassment on the basis of her race
and national origin.2 This matter is before the Court on Truong's objection to the
January 27, 2020 Report and Recommendation ("R&R") of Magistrate Judge Becky R.
Thorson. ECF No. 55. Judge Thorson recommends granting Collins's motion for
summary judgment and denying Truong's cross-motion for summary judgment. The

!When Truong joined the company in September 2014, defendant Rosemount
Aerospace, Inc. was operating under the brand name "UTC Aerospace Systems."
Defendant is now operating under the brand name "Collins Aerospace." See ECF
No. 39-1 at 2.
2Although not pleaded in her complaint, Truong's subsequent filings suggest
that she also means to assert a retaliation claim and a claim under Minnesota's
Whistleblower Act, Minn. Stat. § 181.932. See ECF No. 8 at 1; ECF No. 43 at 2.

CASE 0:18-cv-00941-PJS-BRT Doc. 65 Filed 03/11/20 Page 2 of 6

Court has conducted a de novo review. See 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b).
Based on that review, the Court overrules Truong's objection and adopts Judge
Thorson's careful and thorough R&R.
Truong does not specifically object to any of Judge Thorson's factual findings or
legal conclusions. Instead, Truong recites a litany of grievances against her employergrievances that, as Judge Thorson explains, do not rise to the level of actionable claims
under Title VII. Among other things, Truong's objection reiterates that: (1) she was
placed on a performance improvement plan in 2016 and some of the feedback that she
received in connection with the plan was embarrassing and upsetting;3 (2) she has had
numerous meetings with Collins's human resources ("HR") department; (3) she
received a written warning in 2018 related to her alleged misuse of sick time; and (4) she
was suspended with pay for more than a month. ECF No. 56 at 1-3. Judge Thorson
carefully analyzed each of these grievances (and many others) in recommending
dismissal of Truong's discrimination and harassment claims, and the Court adopts
Judge Thorson's analysis in its entirety.
As Judge Thorson explains, Truong's discrimination claim fails for several
reasons, including the fact that she has not suffered an adverse employment action. See
Grant v. City of Blytheville, 841 F.3d 767, 773 (8th Cir. 2016) (to establish prima facie case

3Collins discontinued the plan on March 13, 2017, based on Truong's improved
performance. ECF No. 39-3 at 3; ECF No. 39-1 at 60.
-2-

CASE 0:18-cv-00941-PJS-BRT Doc. 65 Filed 03/11/20 Page 3 of 6

of discrimination plaintiff must show, inter alia, that he suffered an adverse
employment action). Truong has been employed as a product inspector at Collins since
2014, and remains so employed today. See ECF No. 39-1 at 25-26, 74. Throughout her
<

tenure with the company, Truong's job title has not changed, her work schedule has not
fluctuated, and her pay has increased every year. ECF No. 39-1 at 27, 29; ECF No. 44-6
at 46-64. See Jones v. City of St. Louis, 825 F.3d 476, 480 (8th Cir. 2016) ("'An adverse
employment action is defined as a tangible change in working conditions that produces
a material employment disadvantage, including but not limited to, termination, cuts in
pay or benefits, and changes that affect an employee’s future career prospects, as well as
circumstances amounting to a constructive discharge.'" (quoting Jackman v. Fifth Judicial
Dist. Dep't ofCorr. Servs., 728 F.3d 800, 804-05 (8th Cir. 2013)); see also Powell v. Yellow
Book USA, Inc., 445 F.3d 1074,1079 (8th Cir. 2006) ("We have held that formal criticisms
or reprimands that do not lead to a change in compensation, responsibilities, or other
benefits do not constitute an adverse employment action under Title VII." (citing Spears
v. Mo. Dep't of Con. & Human Res., 210 F.3d 850, 854 (8th Cir. 2000) (en banc))); Givens v.
Cingular Wireless, 396 F.3d 998, 998 (8th Cir. 2005) ("[Pjlacing Givens on a 'performance
improvement plan,' without more, did not constitute an adverse employment action."
(citation omitted)); Singletary v. Mo. Dep’t ofCorr., 423 F.3d 886, 891-92 (8th Cir. 2005)
(plaintiff did not suffer an adverse employment action by being placed on paid

-3-

CASE 0:18-cv-00941-PJS-BRT Doc. 65 Filed 03/11/20 Page 4 of 6

administrative leave). On the record before it, the Court cannot find that Truong has
suffered an adverse employment action, and as a result, her discrimination claim
necessarily fails. (The Court also agrees with Judge Thorson that Truong has failed to
establish that any of the actions about which Truong complains were motivated by
animosity to her race or nationality.)
Judge Thorson recommends dismissing Truong's harassment claim for failure to
exhaust her administrative remedies, and Truong has not objected to this
recommendation. See ECF No. 55 at 13. Even if Truong's harassment claim had been
exhausted, the Court would dismiss it on the merits. Harassment is not actionable
under Title VII unless the harassment is "'sufficiently severe or pervasive to alter the
conditions of the victim's employment and create an abusive working environment.'"
Paskert v. Kemna-ASA Auto Plaza, Inc.,__ F.3d

, No. 18-3623, 2020 WL 727740, at *2

(8th Cir. Feb. 13, 2020) (quoting Meritor Sav. Bank, FSB v. Vinson, 477 U.S. 57, 67 (1986)).
Even if Truong had established that any of the alleged harassment of which she
complains was motivated by Truong's race or national origin—and she has not—none
of that alleged harassment comes close to clearing the "high bar" of severity necessary
to establish a Title VII violation. See id. ("JO]ur Eighth Circuit precedent sets a high bar
for conduct to be sufficiently severe or pervasive in order to trigger a Title VII violation.
... [S]ome conduct well beyond the bounds of respectful and appropriate behavior is

-4-

CASE 0:18-cv-00941-PJS-BRT Doc. 65 Filed 03/11/20 Page 5 of 6

nonetheless insufficient to violate Title VII." (citing McMiller v. Metro, 738 F.3d 185,188
(8th Cir. 2013)).
Finally, in her objection to the R&R, Truong asserts that between 2016 and 2018,
her manager repeatedly brought her to the HR department after she refused to certify
that certain products that she had inspected met customer specifications. ECF No. 56
at 3. Conscious of its duty to liberally construe pro se filings, the Court interprets
Truong's assertions as an attempt to revive her whistleblower claim under Minn. Stat.
§ 181.932. As Judge Thorson explains, however, Truong's whistleblower claim is not
properly before the Court because it was not included in Truong's initial complaint, and
because Truong never formally amended her complaint to add the claim.4 ECF
No. 55 at 15-16. Even if it had been included in her complaint, Truong's whistleblower
claim would fail on the merits. To establish a violation of Minn. Stat. § 181.932, Truong
must show, among other things, "that [she] engaged in statutorily protected
conduct—in other words, that [she] reported a violation (or suspected violation) of the
law." Colenburg v. STARCON Int'l, Inc., 656 F. Supp. 2d 947, 956 (D. Minn. 2009), aff'd
619 F.3d 986 (8th Cir. 2010). Truong has not alleged that she reported any actual or
suspected violation of federal or state law; instead, she says that Collins "failed

4Truong did, however, write a letter to the Court attempting to add this claim, as
well as a claim for retaliation. See ECF No. 8.
-5-

CASE 0:18-cv-00941-PJS-BRT Doc. 65 Filed 03/11/20 Page 6 of 6

ethically." ECF No. 56 at 3. Truong has therefore not raised a viable whistleblower
claim.
ORDER
Based on the foregoing, and on all of the files, records, and proceedings herein,
the Court OVERRULES Truong's objection [ECF No. 56] and ADOPTS the January 27,
2020 R&R [ECF No. 55]. IT IS HEREBY ORDERED THAT:
1.

Defendant's motion for summary judgment [ECF No. 36] is GRANTED.
a.

Plaintiff's claims under the Minnesota Human Rights Act are
DISMISSED WITH PREJUDICE AND ON THE MERITS.

b.

Plaintiff's Title VII discrimination claims—except for claims related
to Truong's 2018 suspension and Collins's failure to promote
Truong in 2019-are DISMISSED WITH PREJUDICE AND ON
THE MERITS.

c.

Plaintiff's remaining claims are DISMISSED WITHOUT
PREJUDICE.

2.

Plaintiff's cross-motion for summary judgment [ECF No. 42] is DENIED.

LET JUDGMENT BE ENTERED ACCORDINGLY.
Dated: March 11, 2020

s/Patrick T. Schiltz
Patrick J. Schiltz
United States District Judge

-6-

CASE 0:18-cv-00941-PJS-BRT Doc. 55 Filed 01/27/20 Page 1 of 23

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Civ. No. 18-941 (PJS/BRT)

Lisa Truong,
Plaintiff,

REPORT AND
RECOMMENDATION

v.

UTC Aerospace Systems,
Defendant.
Lisa Truong, 6232 Vincent Avenue South, Richfield, MN 55423, pro se Plaintiff.
Allyson L. Johnson, Esq., Julia H. Pozo, Esq., and Kyle A. Petersen, Esq., Seyfarth
Shaw, LLP, counsel for Defendant.

This matter comes before the Court on Defendant’s Motion for Summary
Judgment. (Doc. No. 36, Def.’s Mot. for Summ. J.). Plaintiff, Lisa Truong, who is
proceeding pro se, has filed a Cross-Motion for Summary Judgment.1 (Doc. No. 42, PL’s
Mot. for Summ. J.) After a hearing on the motions, and for the reasons that follow, this
Court recommends that Defendant’s motion be granted, and Plaintiffs motion be denied.

i

Defendant argues in a supplemental memorandum that because Truong failed to
respond to its Motion for Summary Judgment, this Court should conclude that it “is
uncontroverted and should [therefore] be granted.” (Doc. No. 51, Def.’s Second Mem. 2
(citing cases).) This Court, however, construes Truong’s submission at Doc. No. 42 as a
response to Collins’s Motion for Summary Judgment as well as a Cross-Motion for the
same.

CASE 0:18-cv-00941-PJS-BRT Doc. 55 Filed 01/27/20 Page 2 of 23

I.

Introduction
On April 5, 2018, Plaintiff Lisa Truong (“Truong”) filed a Complaint against her

employer, Collins Aerospace (“Collins”)2 alleging violations of Title VII of the Civil
Rights Act of 1964, as amended, 42 U.S.C. §§ 2000e et seq. (“Title VII”) and the
Minnesota Human Rights Act, Minn. Stat. § 363A et seq. (“MHRA”). {See Doc. No. 1,
Compl.; Doc. No. 8, Pl.’s Suppl.) Specifically, Truong alleges that Collins discriminated
against and harassed her on the basis of both her race and national origin. (Compl. 3-4,
6-7.) Truong alleges that the discrimination and harassment began in November 2015
and is ongoing.3 (Pl.’s Suppl. 1) She has also made a claim under the Minnesota
Whistleblowers’ Act, Minn. Stat. § 181.932. {Id.) Truong seeks in excess of $250,000 in
damages. (Compl. 8.) Collins denies all of Truong’s allegations. {See Doc. No. 4,
Answer.)

2

In September 2014—when Truong joined the company—Collins still operated
under the brand name “UTC Aerospace Systems,” but it has since changed its brand
name to Collins. {See Def.’s Mot. for Summ. J. 1, 2-3.)
3

Truong’s Complaint lists the date as August 2015, but in her “Supplement” she
corrected the date to November 2015. (Pl.’s Suppl. 1.) The first incident she complains
of, however, occurred in August 2015 (Compl. 6), and Truong’s subsequent submissions
do not resolve the conflict between these dates.
2

CASE 0:18-cv-00941-PJS-BRT Doc. 55 Filed 01/27/20 Page 3 of 23

II.

Facts
A. Plaintiffs Work History at Collins
Truong joined Collins as an Inspector I4 in September 2014. (Doc. No. 39-1,

Truong Dep. 24:7-9; Doc. No. 39-1, Offer Letter.) Rick Knutson hired her for the
position, and Truong states that she believes that Knutson was aware that she was
Vietnamese at the time of hiring. (Truong Dep. 47:23-48:10.) During her time with
Collins, Truong has had three supervisors: David Navandy (“Navandy”), Rick Knutson
(“Knutson”), and her current supervisor, Marty Smith (“Smith”). (Id. at 48:11-51:6.)
Pursuant to Truong’s Complaint, the first incident occurred in August 2015 when
Inspection Team Group Leader Deb Sund (“Sund”) yelled at Truong. (Compl. 6) Truong
had noticed something on Sund’s product line that did not “me[e]t the customer
blueprint,” and she brought it to Sund’s attention. (Truong Dep. 111:5-20.) In response,
Truong alleges that Sund yelled at her, and subsequently bullied her and watched her
work. (Id. at 113:2—8, 114:10-12.)
In November 2015, Truong reported to Collins’s human resources department that
she felt “picked on” by her superiors concerning her work performance. (Doc. No. 39-1,
Kurtz Decl. 2.) Kimberly Kurtz (“Kurtz”)—then a Human Resources Generalist—
investigated the matter. (Id. ffij 1-2.) Kurtz reports that she “found no evidence”
substantiating Truong’s claims; instead, Kurtz’s investigation led her to conclude that

4
An Inspector I is responsible for ensuring that products are dispatched to
customers pursuant to the customers’ specifications. (Doc. No. 39-1, Truong Dep. 81:lb20; Doc. No. 39-1, Deck of Courtney Schnaus U 8.)
3

CASE 0:18-cv-00941-PJS-BRT Doc.55 Filed 01/27/20 Page 4 of 23

Truong “had difficulty taking constructive criticism and accepting and following
directions.” (Id. *H 3.) Truong disagreed with Kurtz’s findings at the time. (Id.)
Truong was given a “Plan of Action - Reset of job expectations - Move to PL52,
Space” (“Plan of Action”) by Knutson and Kurtz on January 14, 2016. (See Truong Dep.
97:6-12, 151:4-15; Doc. No. 39-2, 1/14/16 Plan of Action 22-25.) That document
informed Truong that she had “not demonstrated proficiency with some of the
fundamental skills required for [her] position and as a result [she was] being transitioned
to a different product line.” (Id. at 22.) The Plan of Action discussed “areas for
improvement” and the expectations for Truong’s new role. (Id. at 22-23.) A handwritten
note on the Plan of Action states that Knutson planned to meet with Truong “every
couple of weeks” to monitor her training for and performance in the new position. (Id. at
23.)

Truong, however, did not feel that her issues had been resolved, and she e-mailed
Human Resources Manager Heather Paur (“Paur”) on February 11, 2016, asking to
discuss company policy with her. (Doc. No. 39-3, 3/21/16 E-mail Chain 34-35.) It
appears from Truong’s deposition that she sought Paur out to discuss Kurtz and
Knutson’s treatment of her and the Plan of Action she had been given. (See Truong Dep.
92:4-95:8.) Truong stated that when she subsequently met with Paur, Truong never raised
the issue of discrimination due to her race or national origin; Truong further stated that
she was having a personality conflict with Kurtz and Knutson. (Id. at 93:19-94:9.) Paur
told Truong that she believed Kurtz and Knutson were following policy and were
authorized to issue Truong the Plan of Action. (Id. at 94:10-18.) Paur restated this in a
4

CASE 0:18-cv-00941-PJS-BRT Doc. 55 Filed 01/27/20 Page 5 of 23

subsequent e-mail, writing that she “approve[d] of the way that [Kurtz and Knutson] are
moving forward .... They have completed all of the follow-up actions I asked them to
do,” and instructing Truong to address any further concerns she might have to Kurtz and
Knutson “directly.” (3/21/16 E-mail Chain 34.) In that e-mail, Paur also informed Truong
that if she felt she was “not getting answers,” she could contact the ombudsman
confidentially. {Id.)
On March 17, 2016, Truong received performance feedback related to her Plan of
Action from Group Lead Sylvia Pieper (“Pieper”). (Doc. No. 39-3, Pieper Feedback 44.)
Among other concerns, Pieper remarked that Truong “still needs to be told to help her
fellow inspectors when she’s slow in our department. She doesn’t seek them out, likes to
say [sic] and talk to the girls in her language.” {Id.) On April 14, 2016, Truong e-mailed
Kurtz and Knutson memorializing a meeting held the day before. (Doc. No. 39-3,
4/14/2016 E-mail Chain 36.) That e-mail states that Tmong refused to sign an updated
Plan of Action because of alleged discrimination by Pieper. Specifically, Truong cites as
examples of discrimination Pieper’s statements that Truong (1) was not qualified to
inspect Pieper’s product, (2) could not read a blueprint, and (3) spoke to other workers in
Vietnamese. {Id.)
Kurtz and Knutson investigated Truong’s complaints, “but found no evidence of
unfair treatment.” (Kurtz Deck 15.) Instead, they determined that Truong “received
legitimate feedback regarding her work performance that had nothing to do with her race
or national origin.” (Id.) Concerning Pieper’s comment about Truong speaking
Vietnamese to other employees, Kurtz represents that this was related to the fact that
5

CASE 0:18-cv-00941-PJS-BRT Doc.55 Filed 01/27/20 Page 6 of 23

Truong “was observed talking a lot at work and, by doing so, she could distract other
employees that needed to complete their work.” (Id.) Kurtz did, however, meet with
Pieper about Truong’s concerns, discussing company “EEO, discrimination, harassment,
and retaliation policies.” (Id. at 6.) Kurtz and Truong also met to discuss the matter.
(Id; Doc. No. 39-3, 4/25/16 E-mail Chain 37.)
On October 28, 2016, Truong was given a new Plan of Action, and transferred to
another product line. (Doc. No. 39-2, 10/28/2016 Plan of Action 27-29; Truong Dep.
160:10-18.) Truong began reporting to Chan Yang, and meeting with Kurtz and Knutson
bi-weekly to monitor her performance. (Truong Dep. 153:24-154:4, 154:15-22.)
Truong’s pay and title remained the same and she reports viewing the transfer as a
positive change. (Truong Dep. 177:18-178:4.) On March 1, 2017—in light of improved
performance on Truong’s part—Knutson took Truong off of her Plan of Action. (Truong
Dep. 163:2-9.)
On June 13, 2017, however, Truong filed a new complaint with Collins’s Human
Resources Department, alleging a lack of professionalism in the Human Resources
Department and among other individuals. (Doc. No. 39-2, 6/13/17 Letter 1; Truong Dep.
151:2-15.) Truong alleged that the individuals in question had been dishonest, unfair, and
disrespectful to her. (6/13/17 Letter 1.) Truong subsequently met with the then-Director
of Human Resources, Sarah Siddiqui, to discuss her complaint. (Truong Dep. 178:5-21;
Doc. No. 48-2, Schanus Decl.

10.) Truong’s next encounter with Human Resources

came in September 2017 when she and Knutson disagreed as to whether a product label
met customer specifications. (Truong Dep. 37:14-21, 79:6-12, 85:20-86:1; Doc No. 396

CASE 0:18-cv-00941-PJS-BRT Doc. 55 Filed 01/27/20 Page 7 of 23

4, 9/27/17 E-mail 2.) Knutson arranged a meeting with Truong and Senior Human
Resources Generalist Courtney Schanus to discuss the issue, but no disciplinary action
was taken. (Truong Dep. 80:13—18; Schanus Decl. f 1; Doc. No. 39-4, 9/22/17 E-mail 1.)
Approximately ten months later, on July 3, 2018, Truong received a written
warning for missing over forty hours of work unexcused. (Truong Dep. 53:6-19; Doc.
No. 39-4, 7/3/18 Warning 6.) The events leading up to this involved Truong’s request to
take June 28, 2018, off of work. (Truong Dep. 53:20-54:20.) That request was denied by
Knutson, and Truong subsequently called in sick on the day she had requested off.
(Truong Dep. 53:20-56:17.) The written warning issued to Truong stated that she had
demonstrated a pattern of calling in sick on days previously requested as vacation time
but denied by her supervisor. (7/3/18 Warning 6.) Based on the record in this matter, this
was the only written warning Truong ever received.
After receiving the written warning, Truong sent an e-mail to her supervisor and
individuals in Human Resources stating that she was unwell, could not focus on her
work, and was not responsible for any future problems at work because Knutson was
labeling her sick days as unexcused absences. (Truong Dep. 62:18-63:11; Doc. No. 39-4,
7/11/18 E-mail 9.) In response, Schanus placed Truong on paid leave for over a month,
from July 12, 2018 until August 20, 2018. (Schanus Decl.

11; Truong. Dep. 64:20-

65:8, 185:10-12.)
Truong and Knutson had another disagreement in November 2018, once again
concerning customer specifications. (Truong Dep. 75:5-15, 76:24-77:6, 77:16—18; Doc.
No. 39-4, 11/15/18 E-mail 12-13.) Truong faced no disciplinary action as a result of this.
7

CASE 0:18-cv-00941-PJS-BRT Doc.55 Filed 01/27/20 Page 8 of 23

(Truong Dep. 79:24-80:9.) Then, in January 2019, Truong refused to sign her
performance review because she believed Knutson lied therein when he said that she left
her workstation, spoke with other employees, and was not productive. (Truong Dep.
130:11-22.)
Undeterred by her ongoing disputes with management, Truong applied for a
“group leader” position in 2019. (Truong Dep. 31:24-32:17.) Collins instead hired a
another candidate—also of Asian descent—for the position. (Truong Dep. 32:21-33:12.)
Truong received a 1.6% raise in 2016, a 1.55% raise in 2017, a 2.1% raise in 2018, and a
1.9% raise in 2019. (Truong Dep. 133:15-21.)
B. Procedural History
Truong filed a Charge of Discrimination with the Minnesota Department of
Human Rights (“MDHR”) on July 18, 2016, alleging discrimination based on race and
national origin. (Truong Dep. 179:24-180:7; Doc. No. 8-1, Charge of Discrimination 2223.) The MDHR completed its investigation on July 31, 2017, and issued a determination
of no probable cause. (Schanus Decl.

13; Doc. No. 48-2, MDHR Determination 16.)

Truong appealed, and the MDHR affirmed. (MDHR Determination 18.) On January 2,
2018, the Equal Employment Opportunity Commission (“EEOC”) adopted the findings
of the MDHR in Truong’s case and issued a dismissal and notice of rights. (Doc. No. 8-1,
EEOC Determination 2.)
On April 5, 2018, Truong filed suit against Collins alleging race and national
origin discrimination and harassment under Title VII. (,See Compl.) Truong’s Complaint

8

CASE 0:18-cv-00941-PJS-BRT Doc. 55 Filed 01/27/20 Page 9 of 23

also invokes the Minnesota Human Rights Act. (Id. at 6.) Plaintiff describes the following
events to support her claims:
• The August 2015 incident where Sund allegedly yelled at Truong, threatened her,
and told Truong not to touch Sund’s product line (Compl. 6; Truong Dep. Ill:5—
20);

• Sund favored Truong’s coworker, Mary Chung, with respect to overtime (Compl.
6; Truong Dep. 158:16-24);
• Sund yelled at and watched Truong at work (Truong Dep. 112:22-113:18.);
• In November 2015, an unidentified employee (Truong refers to this person as “the
defendant”) accused Truong of being stubborn (Compl. 6.);
• Starting in November 2015, Knutson periodically disagreed with Truong over
product specifications (Truong Dep. 36:22-37:21,40:23-41:9.);
• In January 2016, Knutson and Kurtz placed Truong on a Plan of Action, and Kurtz
failed to consider Truong’s views (Truong Dep. 35:20-36:7, 95:9-18; Compl. 6);
• Paur “pickfed] sides” and did not take time to look at the policy issues Truong
raised (Truong Dep. 91:18-92:17);
• Pieper’s March 2016 remark about Truong’s use of Vietnamese at work (Truong
Dep. 165:23-25; Compl. 6);
• In September 2017 and November 2018, Knutson had disagreements with Truong
and discussed the issue with Human Resources (Truong Dep. 36:20-37:11, 80:1318,89:5-8); '
• Knutson’s July 2018 decision to allow Truong four hours of vacation instead of a
week, and the subsequent issuance of a written warning for missing over forty
hours of time away from work without an excuse (Truong Dep. 52:7-24);
• Truong’s placement on a paid leave of absence in July 2018 (Truong Dep. 68:11—
18, 72:5-9);
• Truong’s allegedly low salary increases in 2017 and 2018 (Compl. 6);

9

CASE 0:18-cv-00941-PJS-BRT Doc. 55 Filed 01/27/20 Page 10 of 23

• Truong’s 2018 performance review, which she alleges contained false and
negative comments (Truong Dep. 130:7-131:5, 138:13-15); and
• Collins’s decision not to hire Truong for a group lead position she applied for in
2019. (Truong Dep. 31:24-32:17, 119:14-17.)
Additionally, Truong seeks to pursue a harassment claim related to her September
2017 and November 2018 product disagreements with Knutson, and his decision to take
up those disagreements with Collins’s Human Resources Department. (Compl. 4; Truong
Dep. 138:21—139:9.) Truong further alleges that Schanus harassed her when she “r[a]n
behind” Truong’s back and told Truong to calm down when she was upset. (Truong Dep.
139:10-18.)
Finally, it appears Truong may be alleging retaliation and whistleblower
protection related to the following events: Knutson’s decision to give Truong an allegedly
unfair review in 2018, the fact that Knutson “pick[ed] on” Truong, and Collins’s decision
not to hire her for a group leader position. (Truong Dep. 31:15-21, 32:8-17, 119:24120:20, 130:23-131:5, 137:2-4.) Plaintiff believes that she is a “whistleblower” because
her superiors forced her to ship product even though she told them it did not meet
customer specifications. (Truong Dep. 140:5-11.)
III.

Analysis
Defendant Collins argues that summary judgment is appropriate in this matter

because (1) most of Truong’s claims are procedurally barred; and (2) those claims that
are not procedurally deficient fail as a matter of law. (See generally, Def.’s Mem. 16-27.)
In her motion and its supporting memorandum, Truong makes no legal arguments, but
instead restates allegations from her Complaint and cites facts she believes support those
10

CASE 0:18-cv-00941-PJS-BRT Doc. 55 Filed 01/27/20 Page 11 of 23

allegations. (See Doc. Nos. 42, 43.) For the reasons that follow, this Court recommends
that Collins’s Motion for Summary Judgment be granted, and Truong’s Motion for
Summary Judgment be denied.
A.

Standard of Review

Summary judgment is appropriate if the evidence in the record, when viewed in
the light most favorable to the nonmoving party, shows that there is no genuine dispute as
to any material fact and the moving party is entitled to judgment as a matter of law. See
Fed. R. Civ. P. 56(a); Thomas v. HeartlandEmp’t Servs., LLC, 797 F.3d 527, 529 (8th
Cir. 2015). The moving party bears the initial burden of informing the court of the basis
for its motion and identifying “those portions of the record which it believes demonstrate
the absence of a genuine issue of material fact.” Jackson v. United Parcel Serv., Inc., 643
F.3d 1081, 1085 (8th Cir. 2011). If the moving party does so, the nonmoving party “may
not... rest on mere allegations or denials,” but must point to evidence “of specific facts
which create a genuine issue of material fact.” Krenik v. Cty. ofLe Sueur, 47 F.3d 953,
957 (8th Cir. 1995). The mere existence of a factual dispute will not defeat a motion for
summary judgment unless that dispute is “genuine,” meaning that “the evidence is such
that a reasonable jury could return a verdict for the nonmoving party.” Anderson v.
Liberty Lobby, Inc., All U.S. 242, 248 (1986).
In deciding a summary-judgment motion, a court need not accept a nonmoving
party’s unsupported allegations, see Reed v. City ofSt.Charles, Mo., 561 F.3d 788, 790—
91 (8th Cir. 2009), conclusory statements, see Heisler v. Metro. Council, 339 F.3d 622,
628 (8th Cir. 2003), or other statements that are “blatantly contradicted by the record,”
11

CASE 0:18-cv-00941-PJS-BRT Doc.55 Filed 01/27/20 Page 12 of 23

such that “no reasonable jury could believe” them. Edwards v. Byrd, 750 F.3d 728, 733
(8th Cir. 2014); see also Scott v. Harris, 550 U.S. 372, 380 (2007) (“When opposing
parties tell two different stories, one of which is blatantly contradicted by the record, so
that no reasonable jury could believe it, a court should not adopt that version of the facts
for purposes of ruling on a motion for summary judgment.”).
B.

Truong’s MHRA Claims are Barred by the Statute of Limitations

The MHRA allows that a private party may bring a civil action “within 45 days
after receipt of notice that the commissioner has reaffirmed a determination of no
probable cause if the charging party requested a reconsideration of the no probable cause
determination, or has decided not to reopen a dismissed case that the charging party has
asked to be reopened.” Minn. Stat. § 363A.33, subd. 1(2).
Here, the MDHR notified Plaintiff on September 29, 2017, that it was affirming its
decision of no probable cause and informed her that she had forty-five days within which
to file a civil action. (Doc. No. 48-2, MDHR Appeal Decision 15.) While Rule 3 of the
Federal Rules of Civil Procedure states that an action is commenced upon the filing of a
complaint, Minnesota’s procedural rules state that an action is commenced upon service
of process. See Minn. R. Civ. P. 3.01; Metro. Fed. Bank ofIowa, F.S.B. v. W.R. Grace &
Co., 999 F.2d 1257, 1261 (8th Cir. 1993). This Court need not determine which
procedural rules apply, because Truong did not file her Complaint in this matter until
April 5, 2018, and a summons was issued that same day. (See Compl.) Thus, at least 188
days had elapsed since the MDHR issued its affirmation of its decision, well in excess of
the forty-five days allowed under the law. Truong failed to bring her claims under the
12

CASE 0:18-cv-00941-PJS-BRT Doc. 55 Filed 01/27/20 Page 13 of 23

MHRA until after the forty-five-day limitations period had expired. As a result, this
Court concludes that such claims are time-barred and should be dismissed.
C.

Truong Did Not Administratively Exhaust Her Harassment Claim

It is well established that Title VII requires claimants to first exhaust their
administrative remedies before filing a lawsuit in court. Alexander v. Gardner-Denver
Co., 415 U.S. 36, 47 (1974). To exhaust one’s administrative remedies, one must
(1) timely file a charge of discrimination with the EEOC and (2) receive notice of one’s
right to sue. 42 U.S.C. § 2000e-5(f)(l). A plaintiff must exhaust her administrative
remedies with regard to every incident of discrimination or retaliatory adverse
employment decision she wishes to litigate. Richter v. Advance Auto Parts, Inc., 686 F.3d
847, 851 (8th Cir. 2012) (citing Morgan, 536 U.S. at 114).
Here, Truong never presented her harassment claim to either the MDHR or the
EEOC. (See MDHR Appeal Decision; Doc. No. 8, EEOC Dismissal 2.) From her
deposition, it appears that Truong’s harassment claim is related to her September 2017
and November 2018 disagreements with Knutson and his subsequent decision to involve
human resources in the matter. (Truong Dep. 138:21—139:9.) Truong further believes that
Schanus harassed her when she “r[a]n behind” Truong’s back and told her to calm down
when she was upset. (Id. at 139:10-18.) However, those allegations were not put before
the EEOC (or the MDHR). This Court therefore concludes that Truong’s harassment
claim should be dismissed for failure to exhaust administrative remedies. See Zellmer v.
Koch, No. CIV. 4-95-461, 1997 WL 405484, at *7 (D. Minn. Mar. 5, 1997) (holding that
plaintiffs claims of hostile work environment and sexual harassment were insufficiently
13

CASE 0:18-cv-00941-PJS-BRT Doc.55 Filed 01/27/20 Page 14 of 23

like or related to her claims of sex discrimination and retaliation to be deemed within the
scope of her lawsuit) (citing Tart v. Hill Behan Lumber Co., 31 F.3d 668 (8th Cir. 1994)).
D.

Truong Has Not Administratively Exhausted Title VII Claims that
Post-Date Her MDHR/EEOC Charge

Truong filed her charge with the MDHR on July 18, 2016, the MDHR issued its
no probable cause determination on July 31, 2017, and the EEOC adopted the MDHR’s
no probable cause determination on January 2, 2018. (See MDHR Appeal Decision;
EEOC Dismissal.) The record in this matter does not indicate precisely when the charge
was filed with the EEOC, though it would have had to have been following Truong’s
direct appeal at MDHR, which was decided on September 29, 2017.
Certain of Truong’s discrimination allegations, however, reference acts that post­
date those decisions. These include:
• Knutson’s decision in July 2018 to allow Truong only four hours of
vacation, and the written warning issued to Truong for missing over forty
hours of time away from work without an excuse (Truong Dep. 52:7-24);
• Schanus’s July 2018 decision to place Truong on a paid leave of absence
(Truong Dep. 68:11-18, 72:5-9);
• Collins’s decision not to hire Truong for a group leader position 2019
(Truong Dep. 31:24-32:17, 119:14-17).
Because these allegations concern events that post-date the MDHR and EEOC’s
decisions—and because each one constitutes a discrete employment action that is
unrelated to the allegations contained in Truong’s charge—it follows that they could not
have been considered by those agencies when they made their determination of no
probable cause in this matter. Richter, 686 F.3d at 851 (citing Morgan, 536 U.S. at 114);
14

CASE 0:18-cv-00941-PJS-BRT Doc. 55 Filed 01/27/20 Page 15 of 23

Tademe v. Saint Cloud State Univ., 328 F.3d 982, 987 (8th Cir. 2003) (stating that
“‘[discrete acts such as termination, failure to promote, denial of transfer, or refusal to
hire’ are ‘not actionable if time barred, even when they are related to acts alleged in
timely filed charges.’”) (quoting Morgan, 536 U.S. at 114.). If Truong wishes to litigate
these actions, she must first exhaust her administrative remedies by filing a new charge
with the EEOC that includes them before she is permitted to bring them here as claims
under Title VII. This Court appreciates that Truong is not an attorney and is proceeding
pro se, but the rules apply equally to pro se and represented litigants alike. Ackra Direct
MJctg. v. Fingerhut Corp., 86 F.3d 852, 856 (8th Cir. 1996) (stating that court rules and
, orders apply equally to pro se litigants). Accordingly, this Court concludes that Truong’s
claims relating to events that post-date the MDHR and EEOC’s decisions in this matter
should be dismissed for failure to exhaust administrative remedies.
E.

Retaliation and Whistleblower Claims Have Not Been Properly
Pleaded

Truong’s statements throughout this litigation have at times implied that she
wishes to pursue retaliation and whistleblowing claims against her employer. (See Doc.
No. 8, Pl.’s Supp. 1; Truong Dep. 28:22-29:3.) This Court’s Pretrial Scheduling Order
required that Truong amend her Complaint by April 1, 2019. (Doc. No. 19, Pretrial
Sched. Ord. 3.) Truong did not do so, and she has made no such request to date.
Accordingly, this Court concludes that any retaliation or whistleblower claims Truong
may have wished to pursue are not a part of this case and are therefore not before the
Court. See, e.g., Seenyur v. Coolidge, No. CV 14-4250 (WMW/BRT), 2016 WL

15

CASE 0:18-cv-00941-PJS-BRT Doc. 55 Filed 01/27/20 Page 16 of 23

7971295, at *13 (D. Minn. July 21, 2016), report and recommendation adopted, No. 14CV-4250 (WMW/BRT), 2016 WL 4467887 (D. Minn. Aug. 22, 2016) (discussing
requirements for a motion to amend where party has failed to meet a scheduling order’s
deadline, and declining to consider claim at summary judgment that was not pleaded in
Plaintiffs complaint).
F.

Plaintiffs Title VII Race-Discrimination Claim Fails

In light of the analysis above, only a race discrimination claim based on the
following allegations remains for the Court’s consideration. Those allegations include
that (1) Sund favored Mary Chung over Truong when awarding overtime (Truong Dep.
158:16-24; Compl. 6); (2) Sund yelled at and watched Truong at work (Truong Dep.
112:22-114:12); (3) an unidentified employee accused Truong of being stubborn (Compl.
6); (4) Knutson began a habit of periodically disagreeing with Truong in November 2015
that continued through November 2018 (Truong Dep. 36:20-37:11, 40:23-41:9, 80:1318, 89:5-8; Compl. 6); (5) Truong was placed on a Plan of Action without having her
views taken into account (Truong Dep. 35:20-36:7; 95:9-18; Compl. 6); (6) Paur took
sides and did not consider policy issues raised by Truong in February 2016 (Truong Dep.
91:18-92:17); low salary increases in 2017 and 2018 (Compl. 6); (7) Knutson’s remarks
in Truong’s January 2019 performance feedback5 (Truong Dep. 130:7-131:5, 138:13-15;

5

This incident certainly post-dates Truong’s EEOC charge, but this Court
concludes that it is sufficiently related to the conduct described in her charge to survive
Defendant Collins’s statute of limitations challenge. See Parisi v. Boeing Co., 400 F.3d
583, 585 (8th Cir. 2005) (stating that plaintiffs may bring suit for additional allegations
that are “like or reasonably related” to the employment-discrimination claim presented to
the EEOC) (quotation omitted).
16

CASE 0:18-cv-00941-PJS-BRT Doc. 55 Filed 01/27/20 Page 17 of 23

Doc. No. 39-4, Performance Feedback 15-20; and (8) Pieper’s negative remark
concerning Truong’s use of her native language at work on March 17, 2016 (Truong Dep.
165:23-25; Compl. 6).
A plaintiff alleging discrimination on the base of race and national origin may
survive a motion for summary judgment through direct evidence “indicating unlawful
discrimination, that is, evidence showing a specific link between the alleged
discriminatory animus and the challenged decision, sufficient to support a finding by a
reasonable fact finder that an illegitimate criterion actually motivated the adverse
employment action.” Fields v. Shelter Mut. Ins. Co., 520 F.3d 859, 863 (8th Cir. 2008).
Where direct evidence is unavailable, a plaintiff “must [first] establish a prima facie case
of discrimination.” Jackson v. United Parcel Serv., Inc., 643 F.3d 1081, 1086 (8th Cir.
2011). To do so, she must show that (1) she is a member of a protected class; (2) she met
her employer’s legitimate expectations; (3) she suffered an adverse employment action;
and (4) similarly situated employees who are not members of the protected group were
treated differently. Gilmore v. AT&T, 319 F.3d 1042, 1046 (8th Cir. 2003) (citing Clark
v. Runyon, 218 F.3d 915, 918 (8th Cir. 2000)).
When a plaintiff establishes a prima facie case, the defendant “may rebut [it] by
articulating a non-discriminatory rationale for its action. Jackson, 643 F.3d at 1086. If the
defendant does so, the burden shifts back to the plaintiff to “prove that the defendant’s
proffered rationale was merely pretext for discrimination.” Id. The plaintiff may prove
pretext by “adducing enough admissible evidence to raise genuine doubt as to the
legitimacy of [the defendant’s] motive.” Anderson v. Durham D & M, L.L.C., 606 F.3d
17

CASE 0:18-cv-00941-PJS-BRT Doc.55 Filed 01/27/20 Page 18 of 23

513, 521 (8th Cir. 2010) (internal quotation marks and citation omitted). Here, there is no
direct evidence of discrimination, thus this Court will analyze Truong’s remaining claim
under this burden-shifting framework.
As to the first prong, it is undisputed that Truong belongs to a protected class
based on her race (Asian) and national origin (Vietnamese). But even if this Court
assumes that she met her employer’s legitimate expectations—an assumption Collins
disputes—Truong still cannot show that most of the incidents she complains of resulted
in an adverse employment action.
For example, Truong alleges that Sund yelled at and watched her at work, leading
Truong to feel that she was being bullied. Truong also relates a specific incident from
August 2015 in which Sund allegedly yelled at Truong and told her not to touch Sund’s
product line.6 (Truong Dep. 111:5-20; Compl. 6.) But this alleged conduct, while
unpleasant and unprofessional, does not rise to the level of an adverse employment
action. An adverse employment action is defined as “a material employment
disadvantage, such as a change in salary, benefits, or responsibilities.” Tademe v. Saint
Cloud State Univ., 328 F.3d 982, 992 (8th Cir. 2003) (citing Bradley v. Widnall, 232 F.3d
626, 632 (8th Cir. 2000)). “Mere inconvenience without any decrease in title, salary, or
benefits is insufficient to show an adverse employment action.” Cruzan v. Special Sch.
Dist. # 1, 294 F.3d 981, 984 (8th Cir. 2002). Truong has produced no evidence that
Sund’s alleged behavior materially affected her employment.
6

Collins argues that any claim related to the August 2015 conduct by Sund is
untimely. (See Def.’s Mem. 17.) This Court does not address that question, instead
resolving the matter on Truong’s failure to show a prima facie case of discrimination.
18

CASE 0:18-cv-00941-PJS-BRT Doc. 55 Filed 01/27/20 Page 19 of 23

The same logic applies to Truong’s complaints that an unidentified person accused
her of stubbornness, Knutson disagreed with her repeatedly, Knutson criticized her job
performance in her January 2019 performance feedback, Paur took sides and refused to
consider issues Truong raised, and that Kurtz failed to consider Truong’s views regarding
her January 2016 Plan of Action. In none of these cases has Truong even attempted to
show that the events in question led to her material disadvantage. To the contrary, the
record shows that Truong remains employed at Collins, has retained her position as
Inspector, and been granted annual pay raises every year she has been with the company.
(Truong Dep. 32:3-14, 45:1-9; 202:1-9.) Consequently, Truong cannot show that she
suffered an adverse employment action. Gilmore, 319 F.3d at 1046 (citation omitted).
Thus, this Court concludes that summary judgment in favor of Collins is appropriate as to
these claims.7
Truong also complains of the salary increases she received in 2016 (1.6%), 2017
(1.55%), and 2018 (2.1%). (Compl. 6.; Doc. No. XX, Pl.’s Exs. 50-60.) She alleges that
the average increase at Collins during those years was 3% and that her performance was
“very strong.” Truong, however, has asserted no further facts to support such a claim.

7
Even if this Court construed these allegations together as a hostile work
environment claim instead of claims for discrimination based on race, that claim would
still fail. To establish a prima facie case under the hostile work environment framework,
Truong would still need to demonstrate, inter alia, that “a causal nexus exists between the
harassment and the protected group status” and that “the harassment affected a term,
condition, or privilege of employment.” Sallis v. University ofMinn., 408 F.3d 470, 476
(8th Cir. 2005). Here, Truong has not demonstrated that any of these actions were
motivated by her race or national origin, nor has she shown how they affected the
material circumstances of her employment.
19

CASE 0:18-cv-00941-PJS-BRT Doc. 55 Filed 01/27/20 Page 20 of 23

Even assuming that a modest annual increase in one’s salary amounts to an adverse
employment action, Truong has not demonstrated that other similarly situated employees
who are not part of her protected class received higher annual raises.8 Truong’s subjective
dissatisfaction with her annual salary increases is insufficient to make a prima facie
showing of discrimination. Thus, this Court concludes that summary judgment in favor of
Collins is appropriate as to this claim.
Finally, Truong alleges that Sund discriminated against her by showing favoritism
to her coworker—Mary Chung—with regard to overtime. Assuming this was an adverse
employment action, Truong cannot show that similarly situated employees who are not
members of her protected class were treated differently. Gilmore, 319 F.3d at 1046
(citation omitted). To the contrary, Truong concedes that Mary Chung is—like herself—
Asian and Vietnamese. (Truong Dep. 158:16-159:11; Compl. 6.) Truong does not cite
any other examples of similarly situated comparators who were treated differently than
she was. Because Mary Chung is both Asian and Vietnamese, Plaintiff has failed to
establish that similarly situated comparators that are not members of her protected class
were treated differently. Thus, this Court concludes that summary judgment in favor of
Defendant is appropriate as to this claim.
For similar reasons, Truong’s claim relating to Knutson and Kurtz’s decision to
put her on a Plan of Action fails. {See Compl. 6; Truong Dep. 35:20-36:7, 39:19^10:13;

8

While the record is lacking in any direct evidence on this point, the MDHR, in its
decision on appeal, observed that its “investigator showed that [Truong] was paid more
than any employee in her classification who was hired during the 12 months after she was
hired, and she received consistent annual pay increases.”
20

CASE 0:18-cv-00941-PJS-BRT Doc. 55 Filed 01/27/20 Page 21 of 23

95:9-18.) This episode also involved Truong’s transfer to a new product line, but such a
transfer does not qualify as an adverse employment action when it does not affect the
employee’s title, pay, hours, or any other material conditions of employment. See
Harlston v. McDonnell Douglas Corp., 37 F.3d 379, 382 (8th Cir. 1994) (stating that
“[cjhanges in duties or working conditions that cause no materially significant
disadvantage ... are insufficient to establish the adverse conduct required to make a
prima facie case,” and holding a secretary’s reassignment to a new position with no
reduction in title, salary, or benefits, did not constitute an adverse employment action);
Flaherty v. Gas Research Inst., 31 F.3d 451, 457 (7th Cir. 1994) (holding that a change in
title and a “bruised ego” did not constitute an adverse employment action where pay,
benefits, and responsibility remained the same). Moreover, this Court observes that
Truong herself appears to concede that she was not placed on the Plan of Action due to
her protected characteristics and regarded the transfer as a “positive change.” (See
Truong Dep. 109:25-110:23; 177:18-178:4.) Thus, this Court concludes that summary
judgment in favor of Collins is appropriate as to this claim.
Truong’s final—and perhaps most colorable—claim relates to Pieper’s
performance review remark that Plaintiff “still needs to be told to help her fellow
inspectors when she’s slow in our department. She doesn’t seek them out, likes to say
[sic] and talk to the girls in her language.” (Compl. 6; Truong Dep. 165:23-25.) While
Kurtz represents that this was related to the fact that Truong “was observed talking a lot
at work and, by doing so, she could distract other employees that needed to complete
their work,” she did meet with Pieper about Truong’s concerns, and in that meeting the
21

CASE 0:18-cv-00941-PJS-BRT Doc. 55 Filed 01/27/20 Page 22 of 23

two discussed company “EEO, discrimination, harassment, and retaliation policies.” (Id.
Tf 6.) However, the fact remains that in order to meet her burden of making a prima facie
showing of discrimination, Truong must demonstrate that Pieper’s remark resulted in an
adverse employment action, and she has not done so. Gilmore, 319 F.3d at 1046 (citation
omitted). From a review of the record, it appears that not only did Pieper’s comment not
result in an adverse employment action, but Pieper herself never criticized Truong again.
Moreover, Pieper was required to meet with Human Resources to discuss Collins’s
policies concerning discrimination, harassment, and retaliation. Accordingly, this Court
concludes that summary judgment in favor of Defendant is appropriate as to this final
claim.
IV.

Recommendation
Based on the files, records, and proceedings herein, IT IS HEREBY

RECOMMENDED that:
1.

Defendant’s Motion for Summary Judgment (Doc. No. 36) be GRANTED;

2.

Plaintiffs Motion for Summary Judgment (Doc. No. 42) be DENIED;

3.

Plaintiffs Complaint (Doc. No. 1) be DISMISSED; and

4.

Judgment be entered accordingly.

Date: January 27, 2020.

s/Becky R. Thorson
BECKY R. THORSON
United States Magistrate Judge

22

CASE 0:18-cv-00941-PJS-BRT Doc. 55 Filed 01/27/20 Page 23 of 23

NOTICE
Filing Objections: This Report and Recommendation is not an order or judgment of the
District Court and is therefore not appealable directly to the Eighth Circuit Court of
Appeals. Under Local Rule 72.2(b)(1), a party may file and serve specific written
objections to this Report within fourteen days. A party may respond to those objections
within fourteen days after service thereof. LR 72.2(b)(2). All objections and responses
must comply with the word or line limits set forth in LR 72.2(c).

23

Additional material
from this filing is
available in the
Clerk's Office.

